<html>
<title> - REAUTHORIZATION OF THE U.S. PAROLE COMMISSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        REAUTHORIZATION OF THE 
                         U.S. PAROLE COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2008

                               __________

                           Serial No. 110-195

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-526 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 16, 2008

                                                                   Page

                            OPENING REMARKS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1

                               WITNESSES

Mr. Kenneth Linn, Director, Federal CURE
  Oral Testimony.................................................     1
  Prepared Statement.............................................     3
The Honorable Eleanor Holmes Norton, a Delegate in Congress from 
  the District of Columbia
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7
The Honorable Edward F. Reilly, Jr., Chairman, United States 
  Parole Commission, United States Department of Justice (DOJ); 
  accompanied by Tom Hutchinson, Chief of Staff, and Rockne 
  Chickinell, General Counsel
  Oral Testimony.................................................    10
  Prepared Statement.............................................    12
Mr. Horace Crenshaw, District of Columbia Parolee, Washington, DC
  Oral Testimony.................................................    20
Mr. David B. Muhlhausen, Ph.D., Senior Policy Analyst, Center for 
  Data Analysis, The Heritage Foundation, Washington, DC
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23

                                APPENDIX

Material Submitted for the Hearing Record........................    37


                        REAUTHORIZATION OF THE 
                         U.S. PAROLE COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 16, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 5:08 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Jackson Lee, and Gohmert.
    Staff Present: Jesselyn McCurdy, Majority Counsel; Bobby 
Vassar, Majority Chief Counsel; Rachel King, Majority Counsel; 
Veronica Eligan, Professional Staff Member; Caroline Lynch, 
Minority Counsel; Kimani Little, Minority Counsel; and Kelsey 
Whitlock, Minority Administrative Assistant.
    Mr. Scott. The Subcommittee will come to order. Mr. Gohmert 
and I understand that Mr. Linn has a plane to catch and would 
like to testify, and I will defer our opening statements so 
that we can hear from Mr. Linn at this time. Mr. Linn.

       TESTIMONY OF KENNETH LINN, DIRECTOR, FEDERAL CURE

    Mr. Linn. Chairman, Committee Members, thank you for this 
opportunity to address you. My name is Kenny Linn. I am the 
Chairman of the Federal chapter of CURE. That is the Citizens 
United for the Rehabilitation of Errants, an organization that 
has been around since 1972. I represent the thoughts and the 
feelings of 202,000 Federal inmates, their families, their 
loved ones and their friends.
    I am not going to address you today about the obvious. 
There will be other witnesses that can tell you about the 
13,000 people that are still under the auspices of the United 
States Parole Commission. I would rather talk about something 
that I feel is more important.
    These are my feelings, the feelings of our board of 
directors and of our organization. It is inevitable that some 
form of early release is looming. We have no reasonable 
alternative option. We cannot continue down the present path 
because it is cost prohibitive to build the necessary prisons 
to house the future population at our present rate of 
incarceration, and it is unjust and inequitable to put mostly 
nonviolent first offenders in prison for the majority of their 
adult lives.
    There are presently nearly 202,000 incarcerated Federal 
inmates. The number has increased exponentially since 1987 with 
no end in sight for this significant growth fueled by draconian 
sentences put in place by the United States Sentencing 
Commission's reliance on guidelines and Congress' mandatory 
minimums. More than half, 55 percent of Federal prisoners are 
serving time for drug-related crimes. Nearly three-fourths, 72 
percent, of the Federal prison population are nonviolent 
offenders. More than one-fourth, 34.4 percent, are first-time 
nonviolent offenders.
    Even though 97 percent of Federal inmates eventually are 
released, discharge may not occur for many years because better 
than 9 out of 10 inmates convicted of Federal crimes will be 
released only after serving approximately 87.5 percent of their 
sentences under the new sentencing guidelines. New law inmates 
have no incentive to rehabilitate and are all painted with the 
same brush.
    Since the bulk of the population is new law, the result has 
been prison overcapacity, facility instability and increased 
danger to both inmates and staff. The new system essentially 
doubled the sentences that judges were forced to impose with no 
chance for early release and these sentences have uniformly 
been initiated and determined by the charging decisions of 
prosecutors.
    In contrast, old law inmates have an opportunity pursuant 
to the United States Parole Commission's discretion for early 
release from prison and early termination of parole. 
Historically, the United States Parole Commission has promoted 
public safety and justice by fairly exercising its authority to 
release and supervise offenders under its jurisdiction through 
a conscious application of its own guidelines in each case. It 
has done this by a willingness to give due regard to individual 
circumstances while applying the least restrictive sanction 
that is consistent with public safety and the appropriate 
punishment for the offense.
    Lengthy sentences have an inordinate impact on inmates' 
families, particularly on children who must be raised in broken 
families. Moreover, with the loss of a wage earner, inmates' 
families are forced onto the welfare roles with the resulting 
negative impact on State budgets. Depending upon whose numbers 
one wishes to use, the cost to the country to incarcerate our 
huge Federal population runs approximately $30,000 to $40,000 
per inmate per year. The total operational cost exceeds $6 
billion yearly and, if one includes amortization of land and 
buildings, the total cost is more than $8 billion.
    Our prison population is aging dramatically. The cost to 
house older inmates is twice that of younger inmates because of 
the increased medical costs. Our conclusion is that inmates can 
be rehabilitated and should have a second chance to lead 
positive lives. The fact that there are over 18,000 Federal 
inmates with sentences longer than 20 years, most of whom are 
nonviolent and many of whom are first-time offenders, indicates 
that review of these sentences by the United States Parole 
Commission would be attractive and advantageous to reducing the 
burgeoning prison population and its attendant costs. An 
existing Federal agency with inmate release expertise is 
standing by to take over supervision of this plan.
    The United States Parole Commission should not only be 
extended, it should be expanded and made permanent not only to 
administer its present mandate of those 13,000 people under its 
auspices but also to be given a new mandate; namely, to review 
lengthy sentences so as to cut costs and set fair release 
dates.
    Thank you.
    [The prepared statement of Mr. Linn follows:]

                   Prepared Statement of Kenneth Linn

      I. THE U.S. PAROLE COMMISSION'S MANDATE SHOULD BE EXTENDED.

    Although the U.S. Parole Commission (hereinafter USPC) was supposed 
to go out of business in 1987, it has consistently been given 
extensions over the years because of the thousands of ``old law'' 
inmates remaining under its jurisdiction (either still incarcerated or 
under post-incarceration supervision) and because those convicted under 
District of Columbia statutes have been placed under USPC management 
after the demise of the old DC Board of Parole. Control of the 
aforementioned supervisees is administered by U.S. Probation Services. 
The same probation officers that direct ``new law'' supervisees handle 
those under the ``old law'' as well albeit under a different set of 
rules. Any new change in procedures for these thousands of ex-felons 
might very well raise ex post facto concerns.
    If for no other reason than the sheer number of present and former 
inmates involved, it would be a monumental effort to legally change the 
rules and regulations that affect those supervisees presently being 
administered by the USPC. Moreover, many of those affected have not yet 
been given a release date by the USPC as provided by the Sentencing 
Reform Act of 1987.

   II. THE U.S. PAROLE COMMISSION'S MANDATE SHOULD BE MADE PERMANENT.

    The USPC has been extended four times since it was supposed to wrap 
up business in 1987. It presently has a staff that exceeds 100 people 
and a budget of more than $10 million yearly. However, the USPC is 
continually given supplementary tasks to accomplish. The original idea 
was for the USPC to establish a release date for each and every inmate, 
oversee those inmates after release, direct their conditions of parole, 
terminate parole at the appropriate time and revoke their freedom if a 
serious violation of parole regulations occurred. Two new tasks given 
to the USPC in recent years include command of District of Columbia 
inmates and authority over treaty transfer prisoners from foreign 
countries.
    Some agency must continue all of this work and what better agency 
than the existing USPC--rather than reinvent the wheel with a new 
bureaucracy. It seems to make little sense to ``reauthorize'' and 
``extend'' the USPC every few years rather than make them a permanent 
body continuing with the same responsibilities presently in place. New 
related responsibilities may also arise.

          III. THE U.S. PAROLE COMMISSION SHOULD BE EXPANDED.

    It is inevitable that some form of early release is looming. We 
have no reasonable alternative option. We cannot continue down the 
present path because it is cost prohibitive to build the necessary 
prisons to house the future population at our present rate of 
incarceration and it is unjust and inequitable to put mostly non-
violent first-offenders in prison for the majority of their adult 
lives.
    There are presently nearly 202,000 incarcerated federal inmates. 
The number has increased exponentially since 1987 with no end in sight 
for this significant growth--fueled by draconian sentences put in place 
by the U.S. Sentencing Commission's reliance on guidelines and 
Congress' mandatory minimums. More than half (55%) of federal prisoners 
are serving time for drug related crimes. Nearly three-fourths (72%) of 
the federal prison population are non-violent offenders. More than one-
fourth (34.4%) are first-time non-violent offenders.
    Even though 97% of federal inmates eventually are released, 
discharge may not occur for many years because better than nine out of 
ten inmates convicted of federal crimes will be released only after 
serving approximately 87.5% of their sentences under the new Sentencing 
Guidelines. ``New law'' inmates have no incentive to rehabilitate and 
are all painted with the same brush. Since the bulk of the population 
is ``new law'' the result has been prison overcapacity, facility 
instability and increased danger to both inmates and staff. The new 
system essentially doubled the sentences that judges were forced to 
impose with no chance for early release and these sentences have 
uniformly been initiated and determined by the charging decisions of 
prosecutors
    In contrast, ``old law'' inmates have an opportunity (pursuant to 
USPC's discretion) for early release from prison and early termination 
of parole. Historically, USPC has promoted public safety and justice by 
fairly exercising its authority to release and supervise offenders 
under its jurisdiction through a conscious application of its own 
guidelines in each case. It has done this by a willingness to give due 
regard to individual circumstances while applying the least restrictive 
sanction that is consistent with public safety and the appropriate 
punishment for the offense.
    Lengthy sentences have an inordinate impact on inmates' families, 
particularly on children who must be raised in broken families. 
Moreover, with the loss of a wage earner, inmates' families are forced 
on to the welfare rolls with the resulting negative impact on state 
budgets. Depending upon whose numbers one wishes to use, the cost to 
the country to incarcerate our huge federal population runs 
approximately $30,000 to $40,000 per inmate per year. The total 
operational cost exceeds $6 billion yearly and if one includes 
amortization of land and buildings total cost is more than $8 billion. 
Our prison population is aging dramatically. The cost to house older 
inmates is twice that of younger inmates because of the increased 
medical costs.

                               CONCLUSION

    Inmates can be rehabilitated and should have a second chance to 
lead positive lives. The fact that there are over 18,000 federal 
inmates with sentences longer than twenty years most of whom are non-
violent and many of whom are first-time offenders indicates that review 
of these sentences by the USPC would be attractive and advantageous to 
reducing the burgeoning prison population and its attendant costs. An 
existing federal agency with inmate release expertise is standing by to 
take over supervision of this plan. The USPC should be extended, 
expanded and made permanent, not only to administer its present 
mandate, but also to be given a new mandate, namely to review lengthy 
sentences so as to cut costs and set fair release dates.

    Mr. Scott. Thank you. Mr. Gohmert for questions.
    Thank you. Thank you, Mr. Linn. Good luck on your plane.
    Mr. Linn. Thank you, Mr. Scott. Thank you all.
    Mr. Scott. Congresswoman Norton.
    Congresswoman Norton is in her ninth term as a Delegate 
from the District of Columbia. She is a Chair of the House 
Subcommittee on Economic Development, Public Buildings, and 
Emergency Management. She was named by President Carter as the 
first woman to chair the EEOC commission and came to Congress 
as a civil rights feminist leader, tenured law professor and 
board member of three Fortune 500 companies.
    Ms. Norton, we are pleased to hear your testimony about the 
effects of this legislation on Washington, DC.

TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON, A DELEGATE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Well, I thank you very much, Mr. Chairman, 
especially for scheduling this hearing so expeditiously because 
extension of the United States Parole Board is a vital public 
safety measure and it is due to expire November 1, 2008. I do 
have to apologize that this is not the last time you shall have 
to have expanded the Commission. It was expanded only 3 years 
ago for 3 years despite the fact that this is a permanent 
Federal commission that deals with a vital public safety 
concern that is increasing even as the number of Federal 
prisoners under its jurisdiction diminishes because Federal 
parole has been abolished. A growing number of District of 
Columbia, D.C. Code felons, however, do and will perpetually 
come under the jurisdiction of the United States Parole Board, 
owing to a decision about 10 years ago by the Federal 
Government at the request of the District of Columbia to assume 
the costs of certain State functions, because the District of 
Columbia is and remains the only jurisdiction in the United 
States that pays for State felons like housing, State matters 
like housing State felons. Our prisoners are now in the Bureau 
of Prison and the U.S. Parole Commission has jurisdiction.
    In the meantime, the Federal Government began about 20 
years ago phasing out this Commission because the number of 
Federal code offenders was diminishing since new ones were not 
being added since the sentencing guidelines were passed.
    When Congress passed the National Revitalization Act, 
however, they created what amounts to a local Federal hybrid 
with the local wagging the tail, if I may say so, because we 
are talking about, as I speak, something over 2,500 Federal 
offenders whereas we now have close to 10,000 D.C. Code 
offenders under the jurisdiction of the Commission.
    Mr. Chairman, I have to tell you that the only reasonable 
thing to do would have been to grant permanent status to this 
Commission, just as we had that before. The only reason that it 
was phasing down and put on 3-year cycles, it was going out of 
business. Well, the Justice Department has been on automatic 
pilot. And when we approached them and said, why should we 
bother the Congress, take them away from urgent business every 
3 years to say, to ask them to keep extending the Commission, 
they refused to do so. I was very puzzled by that refusal. Then 
I said, go back to them. How about 5 years? Why should we be 
back again here asking for an extension of a Federal entity 
whose public safety mission is permanent and is important both 
to the Federal Government and to the District of Columbia?
    One gets impatient with refusals of that kind because it is 
the inescapable reality that this Commission is going to be 
there. And it is also the case that Congress knows how at least 
since we became the majority to do the needed oversight and you 
don't need a 3-year cycle or you should not need a 3-year cycle 
to do oversight of the United States Parole Commission.
    So you are going through what I regard as a needlessly 
mandatory ritual, and get ready to see us again in 3 years.
    Now more seriously, the courts have taken note of the fact 
that this Commission could--of course it could not, we have 
already spoken with the Senate--could go out of existence. So 
we have the Third Circuit having ordered the Commission, as I 
understand it, 3 to 6 months before the date when the 
Commission was due to expire, to begin taking action in light 
of expiration. What the Commission has had to do is quite 
artificial and could be risky. Or may have to do. You will hear 
directly from the Chair. And that is to say, to adjust 
prisoners' release dates, which is at odds with what the 
statute may have intended in order to allow for the possibility 
of appeal in case parole is denied.
    Now for a moment, I ask you to imagine what would happen if 
other circuits also decide to ask the Commission to take such 
steps. What they have already asked may prove unworkable. I 
don't think it would be possible if other circuits were asked, 
but courts are in the business of making sure that they are not 
due process violations, not in the business of doing our 
business. So notwithstanding the rank and efficiency involved 
in coming back in another 3 years, we are here to ask for 
another short statutory life with the promise that I will be 
back asking for the permanent extension, allowing you to do 
whatever oversight you think appropriate but not having a 
hearing of this kind which puts in jeopardy the Commission 
itself and its growing jurisdiction over larger and larger 
numbers of D.C. Code felons.
    So I ask rapid passage of this bill, that it be put on 
suspension. And we have already been in touch with the Senate, 
indicate what is at stake here. So I think all are concerned, 
and that is why I so appreciate your getting to us so quickly.
    [The prepared statement of Ms. Norton follows:]

 Prepared Statement of the Honorable Eleanor Holmes Norton, a Delegate 
               in Congress from the District of Columbia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much. I just had one quick 
question. The Federal Parole Board is the parole board for 
those eligible for parole before parole was abolished. And so 
there is a diminishing number of Federal parolees, potential 
parolees. But the Parole Board also serves as the Parole Board 
for Washington, D.C. prisoners.
    Is that right?
    Ms. Norton. That is right. In fact the Parole Board for 
Washington was abolished and the Congress gave U.S. Parole 
Board its jurisdiction.
    Mr. Scott. And so this has a peculiar impact on Washington, 
DC?
    Ms. Norton. It does. In fact that is its major impact, Mr. 
Chairman. Basically a D.C. matter now. Indeed, we are looking 
at a matter that I believe was alluded to by Mr. Linn before, 
and that is the District of Columbia has the longest prison 
sentences in the world, in fact owing in part to some of the 
way the Commission operates. We are very pleased that the Court 
Services and Offender Administration--it is also Federal but it 
has jurisdiction over those who have been released from Bureau 
of Prisons--along with the Commission have taken steps to 
mitigate the effect of these longer sentences. And I am pleased 
that you will later hear from a witness from the District of 
Columbia who has had to bear these harsh effects so that you 
can see why our insisting upon oversight now and perhaps 
ultimately a longer life of the Commission is important.
    Mr. Scott. Thank you. Mr. Gohmert.
    Mr. Gohmert. Thank you very much for your testimony.
    Mr. Scott. Thank you.
    Our next witness will be the Honorable Edward Reilly, the 
Chairman of the United States Parole Commission. Prior to his 
appointment to the Parole Commission, he served 29 years as a 
legislator of the State of Kansas. He served 1 year as a member 
of the Kansas City House of Representatives and 28 years in the 
Kansas State Senate. He is a member of the American 
Correctional Association, the Association of Paroling 
Authorities International, the National Criminal Justice 
Association, the National Committee on Community Corrections 
and the National Association of Chiefs of Police. He received 
his BA in political science from the University of Kansas.
    Our next witness after that will be Mr. Horace Crenshaw, 
who started parole in January 1999 with a parole expiration 
date July 28, 2011. The past 2 years he has been employed by 
the A&D Auto Rental. He is a visual artist and received a 
Bachelor's Degree from Howard University in fine arts.
    Our final witness will be David Muhlhausen, Senior Policy 
Analyst for the Heritage Foundation Center for Data Analysis. 
He is an expert in criminal justice programs, particularly law 
enforcement grant programs administered by the Department of 
Justice. He has testified before Congress on new challenges and 
needs of local enforcement as they take the lead in homeland 
security as well as the community-oriented policing service, 
the COPS program, and other Department of Justice initiatives. 
In addition to testifying on Federal law enforcement grants, 
Mr. Muhlhausen has testified on improving the evaluation 
research done by DOJ and the deterrent effect of the death 
penalty.
    I welcome all of our witnesses today. And thank you for 
joining us today. Your written statements will be entered in 
the record in their entirety. But I ask you to summarize your 
testimony in 5 minutes or less. And to help stay within that 
time, there is a timing light before you that will turn from 
green to yellow with 1 minute left and to red when the 5 
minutes have expired.
    And we will begin with Chairman Reilly.

  TESTIMONY OF THE HONORABLE EDWARD F. REILLY, JR., CHAIRMAN, 
 UNITED STATES PAROLE COMMISSION, UNITED STATES DEPARTMENT OF 
 JUSTICE (DOJ); ACCOMPANIED BY TOM HUTCHISON, CHIEF OF STAFF, 
             AND ROCKNE CHICKINELL, GENERAL COUNSEL

    Mr. Reilly. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Ed Reilly, Chairman of the United 
States Parole Commission. I have with me today, I would like to 
introduce my Chief of Staff, Mr. Tom Hutchison, and Mr. Rockne 
Chickinell, who is the legal counsel for the Commission.
    I am very pleased to be here today to discuss the 
reauthorization of the U.S. Parole Commission. I have submitted 
a prepared statement that I understand has been made a part of 
the Subcommittee's hearing record.
    By way of background, President George H.W. Bush appointed 
me to the Commission and named me Chairman in 1992. President 
Clinton continued me in that role until 1997 and President 
George W. Bush named me Chairman again in 2001.
    Although the Sentencing Reform Act of 1984 abolished parole 
and the Parole Commission, the Commission still exists, and the 
usual question that I always get hit with is why. Well, the 
answer to that question is because the Commission carries out a 
number of important functions. Congresswoman Norton has 
mentioned those, including significant tasks given to the 
Commission by Congress after the enactment of the Sentencing 
Reform Act.
    What are those functions? First, the Parole Commission 
makes parole release and revocation decisions for Federal 
offenders convicted of offenses committed before the U.S. 
sentencing guidelines took place; also for military offenders 
convicted of military crimes in military courts and serving 
their sentence in a Federal Bureau of Prisons facility.
    Secondly, the Commission makes parole release and 
revocation decisions for parole eligible offenders convicted in 
the District of Columbia's Superior Court. Congress gave the 
Commission this responsibility when it enacted the D.C. 
Revitalization Act in 1997.
    Third, the Commission sets and enforces the conditions of 
supervised release for District of Columbia offenders sentenced 
to a term of supervised release by the District of Columbia 
Superior Court. The majority of the Commission's work in this 
regard involves making revocation decisions. This function 
derives from the D.C. Revitalization Act and related District 
of Columbia legislation that abolished parole for the District 
of Columbia offenders and replaced it with supervised release.
    Fourth, the Commission makes release decisions for 
transfered treaty offenders, United States citizens convicted 
of a crime in a foreign country who elect to serve their 
sentences in this country. If the foreign offense was committed 
before November 1 of 1987, that offender is eligible for 
parole. The Sentencing Reform Act provides that if a foreign 
offense is committed on or after November 1, 1987, the 
Commission determines a release date, taking into consideration 
the United States sentencing guidelines.
    It should be emphasized that all of the functions currently 
carried out by the Commission will have to be carried out after 
November 1 of this year. There is no Federal agency authorized 
to carry out any of these functions of the Commission at this 
time, and there is no District of Columbia agency authorized to 
carry out any of these functions at this time.
    Extending the life of the Commission is the best course of 
action to ensure the orderly administration of justice, to 
ensure that the public is adequately safeguarded by a 
commission whose primary mission is public safety.
    I also urge Congress to act very quickly since the winding 
down mechanism of the Sentencing Reform Act of 1984 requires 
the Parole Commission to set release dates for parole-eligible 
Federal offenders still in prison and to do so in a sufficient 
time to give those offenders an opportunity to take an 
administrative appeal of their release date. That process takes 
about 90 days, which means that the deadline for acting on 
these cases of some 1,500 offenders is the end of this month. 
That will require a significant effort by the Commission and 
detract it from its ability to carry out the Commission's other 
public safety functions, and much of that effort may well be 
wasted if Congress decides that the life of the Commission 
should be extended.
    In previous years Federal offenders citing the winding down 
mechanism have sought to compel the Commission to give them 
early release dates. Up until now, such litigation has not 
succeeded. The courts are very cognizant that enactment of 
legislation can be time consuming and that it is not uncommon 
for Congress to act very near a deadline.
    This month one court, Congresswoman Norton mentioned, has 
indicated that the Commission must soon have to set a release 
date for a parole-eligible Federal offender under this winding 
down mechanism or provision. The decision came before a bill 
was introduced or even considered to extend the Commission's 
life or if there was any other public indication like this 
hearing that Congress was making progress in moving legislation 
to extend and address the life of the Commission.
    In view of that decision, I urge Congress to move forward 
as promptly as possible to secure enactment of legislation that 
would extend the life of the Commission.
    I thank you very much for the opportunity to be here today. 
I express my deep personal appreciation for the support we have 
had from Congress.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reilly follows:]

              Prepared Statement of Edward F. Reilly, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Chairman Reilly.
    Mr. Crenshaw.

  TESTIMONY OF HORACE CRENSHAW, DISTRICT OF COLUMBIA PAROLEE, 
                         WASHINGTON, DC

    Mr. Crenshaw. I was only notified about this hearing 
yesterday, so I don't have any prepared statement. Thanks to 
the Chairman, the Committee and especially Congresswoman 
Norton. Public speaking is not my forte.
    Mr. Gohmert. Just talk to us. Don't worry about public 
speaking. Just talk to us.
    Mr. Crenshaw. I am primarily going to focus on my 
interactions with the U.S. Parole Commission. I did a bad thing 
in 1980, a really bad thing, and was sentenced to 8 to 24 
years. I was, under D.C. guidelines, sentenced to a District of 
Columbia facility. At the time there was overcrowding. So they 
were sending the excesses to the Federal system, which had the 
result of meaning I had to do more time because--not unable to 
be adjudicated under D.C. guidelines. The Federal Parole Board 
using different guidelines made us do more time. So instead of 
on my sentence probably being parole eligible after 6 years, I 
wasn't granted parole until I had done 12 years.
    But after I made parole, my prison experience made me want 
to do the right thing, be a productive member of society. Also 
in prison I learned that I had an ability in art. I started 
painting and left with the impression that I could be good at 
this.
    At the ripe old age of 42, I went to a university, Howard 
University, and pursued a degree in fine arts. While I was 
incarcerated I had been in several what they call gladiator 
camps but really the most difficult thing I had ever done was 
at 42 to go to class with 18- and 19-year-old students. I did 
really well, got my degree in 1995. My work is really good. I 
did a lot of portraits. Actually I have done some of your 
constituents. I did a portrait of Mr. Conyers, Ms. Kilpatrick.
    For me I don't do success well. And as a result I started 
using drugs. That was my first interaction with the U.S. Parole 
Commission. During the process, speaking to other inmates who 
had been before the Parole Board, they said, with dirty urine 
you are definitely going back to prison. But you know, I 
thought I was the Parole Board poster child. I mean, a college 
degree, all these connections. And certainly they wouldn't send 
me back for one dirty urine, but they did. They gave me 18 
months. And along with that, they took the 4 years of good time 
I had accrued while out on the street.
    I got out of there again in 1997, stayed clean, got back on 
track, painting, doing the right thing, got back on track, 
stayed clean until 2008, at which time I got too fabulous again 
and started using the drugs. But this time when I saw the 
Parole Commission and I really thought they were going to send 
me back, they let me go into a drug program, which meant that I 
kept my job, I kept my contacts, and I was able to continue my 
painting business. And I am out here sitting before you all 
now.
    Mr. Scott. Thank you.
    Mr. Muhlhausen.

TESTIMONY OF DAVID B. MUHLHAUSEN, Ph.D., SENIOR POLICY ANALYST, 
CENTER FOR DATA ANALYSIS, THE HERITAGE FOUNDATION, WASHINGTON, 
                               DC

    Mr. Muhlhausen. Thank you. My name is David Muhlhausen. I 
am a Senior Policy Analyst in the Center for Data Analysis at 
the Heritage Foundation. I thank Chairman Robert Scott, Ranking 
Member Louie Gohmert, and the rest of the Subcommittee for the 
opportunity to testify today on the reauthorization of the U.S. 
Parole Commission. The views I express in this testimony are my 
own and should not be construed as representing any official 
position of the Heritage Foundation.
    The concern over high crime rates, a failed rehabilitative 
model of corrections led Federal and State governments to 
reform their correctional systems. In 1984, the U.S. Congress 
passed the Sentencing and Reform Act. The act made major 
changes to Federal sentencing policies by replacing 
indeterminate sentences with determinate sentences. The act 
also abolished parole. As a result of the implementation of 
determinate sentencing, offenders sentenced to Federal prison 
were required to serve at least 85 percent of their sentences. 
With good behavior, the offender could earn an early release 
with the remaining 15 percent of their original sentence.
    The switch to determinate sentencing was intended to set in 
motion the eventual termination of the Parole Commission. While 
the planned phase out of the Commission has yet to take place, 
Congress has extended the life of the Commission several times. 
Not only has the life of the Commission been extended but its 
responsibilities have been extended as well.
    Today the Parole Commission still oversees Federal old law 
cases that predate sentencing reform. More important, the 
Commission's--the majority of the Commission's workload 
concerns District of Columbia offenders. In fiscal year 2006 
the Commission was responsible for thousands of District of 
Columbia offenders. However, the authorization of the 
Commission is set to expire on October 31 of this year.
    While the role of the Commission is greatly diminished, the 
Commission still performs important functions that should 
continue. Therefore, reauthorization of the Commission is 
warranted. However, a return to the old indeterminate system is 
not justified. The continuing need for determinate sentencing 
can be justified for several reasons.
    First, long prison terms for serious crimes are just. 
Indeterminate sentencing grant parole boards too much 
discretion in release decisions. This discretion all too often 
came at the expense of public safety. Determinate sentencing 
made incarceration terms more meaningful by ensuring that 
offenders actually serve most of their sentences. This change 
helped restore the credibility of the courts.
    Second, incapacitation deterrence works. During the 1970's 
and 1980's, Federal, State and local officials recognized that 
the rehabilitative model of corrections did not work. 
Deterrence and incapacitation became the primary mission of 
corrections systems. Thus, Federal and State governments 
adopted such reforms as determinate sentencing, truth in 
sentencing and increased sentence lengths. Over the years 
several studies have demonstrated a link between increased 
incarceration and decreases in crime rates. After controlling 
for socioeconomic factors that may influence crime rates, 
research indicates that incarceration reduces crime 
significantly. For example, Professor Joanna Shepherd of 
Clemson University found State truth-in-sentencing laws reduced 
violent crime rates across the Nation.
    Third, determinate sentencing reduces disparity in 
sentencing by treating offenders equally. Indeterminate 
sentencing and parole decisions were criticized for placing too 
much discretionary power in the hands of judges and parole 
boards. The wide discretion given these decision makers led to 
the perception of an arbitrary sentencing system. Determinate 
sentencing helped reduce this problem.
    While the Sentencing Reform Act greatly diminished the 
original responsibilities of the U.S. Parole Commission, the 
agency still performs important functions such as overseeing 
Federal old law cases and offenders from the District of 
Columbia. Congress should reauthorize the Commission, but avoid 
any temptation to revive indeterminate sentencing and parole at 
the expense of public safety.
    Thank you.
    [The prepared statement of Mr. Muhlhausen follows:]

                Prepared Statement of David B. Mulhausen

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much.
    We will now have questions for the panel. And I will begin 
by recognizing myself for 5 minutes. Mr. Muhlhausen, your 
testimony seems to perpetuate a misunderstanding about 
determinate sentences as, quote, increasing sentences. Those 
are two different things.
    Let me ask you a question of whether it would be better to 
have indeterminate sentencing of a few getting out in one and a 
half years, most getting out in 3 and a few serving 10 years or 
everybody get out in 3 years?
    Mr. Muhlhausen. Well, I think it depends on the nature of 
the crime. I think that one of the things that happened was 
that the crime the person was convicted of, if they are sent to 
prison, we are saying that this person needs to be 
incarcerated, it should be for a set term, something that is 
meaningful. In combination with other reforms, it helped lead 
to increased sentences.
    Mr. Scott. Would it be better to sentence a person to one 
and a half years to 10 years and they got out when they are 
ready or everybody serves 3 years, ready or not, here they 
come?
    Mr. Muhlhausen. It depends on the sentence, what the crime 
was.
    Mr. Scott. What is the sentence?
    Mr. Muhlhausen. It would depend on what the crime was. I 
would say if it was a serious offense, I would say the safe bet 
is for the longer sentence that is appropriate.
    Mr. Scott. 3 years.
    Mr. Muhlhausen. Yes. But it depends.
    Mr. Scott. As opposed to possibly serving 10?
    Mr. Muhlhausen. It depends on the individual. It depends on 
what the crime was.
    Mr. Scott. When is it best to determine when it depends?
    Mr. Muhlhausen. Well, I think----
    Mr. Scott. A judge, if you are talking determinate 
sentences, it is not whether they serve 3 or they serve 10. The 
question is whether it is determinate or indeterminate. Okay. 
Here we go. A year and a half to 10 years, average of 3, where 
some, the most--the worst will actually pull all 10? Or 
everybody out in 3 years, ready or not, here they come?
    Mr. Muhlhausen. If you can ensure that the serious 
offenders stayed in and deserve--I would prefer the range.
    Mr. Scott. Under the liberal deceptive parole system, as it 
has been disparaged, some actually pulled all 10 years, 
couldn't get out, couldn't make parole. Some got out early. A 
decision was made when it was time for them to get out. And 
some were determined not ready. They were held all 10 years. 
Now the question again is would it be better for all of them to 
get 3 years, ready or not, here they come? Or some getting out 
early and some appropriately held three times longer?
    Mr. Muhlhausen. If we had a system where we had confidence 
in the decisions made, I would go with the option you are 
leaning towards.
    Mr. Scott. One and a half to 10?
    Mr. Muhlhausen. It would have to be that we have confidence 
in the system and it works.
    Mr. Scott. Okay. But you would prefer 3?
    Mr. Muhlhausen. If we couldn't trust the judges and the 
Parole Board, yes.
    Mr. Scott. Well, that is the choice we have to make as 
legislators, whether or not everybody gets out in 3 and those 
who could have stayed all 10 get out in the 3 with the rest of 
them.
    Mr. Muhlhausen. One of the things I think that----
    Mr. Scott. Suppose you had Willie Horton and somebody who 
rehabilitated, shows no likelihood of recidivism in the 
objective judgment of the Parole Board, would you hold--would 
you want them all out on the same date? Or would you like the 
opportunity to hold Willie Horton and Charles Manson the whole 
10 and not get out in 3 like everybody else?
    Mr. Muhlhausen. Well, I would say that any system that 
sentenced Willie Horton and the other person to only 3 years 
would be terribly unjust. They should serve longer.
    Mr. Scott. This is the kind of--you can't catch up with it 
kind of thing that determinate sentence tries to suggest. You 
are trying to set----
    Mr. Muhlhausen. Well, if you had murderers who were 
sentenced for 3 years only, that wouldn't make sense.
    Mr. Scott. Well, if you want to compare that to 10, the 
comparison isn't one and a half to 10 whether people serve 3 or 
10. If you want 10 to be the average, then you are talking 
about 5 to maybe 30. Now, let's go--if you want them to serve 
10 years, average 10 years, would it make more sense to let 
some out in 5 and some out in 30 or everybody out in 10 years, 
ready or not, here they come?
    Mr. Muhlhausen. I would be opposed to both instances 
because both sentences are too short for murder.
    Mr. Scott. Okay. Let's go 30 years. Would it make more 
sense for everybody to get out in 30 years or some to get out 
in 10 and some to get out in 50?
    Mr. Muhlhausen. I would prefer 30 years.
    Mr. Scott. Everybody----
    Mr. Muhlhausen. People convicted of murder, yes.
    Mr. Scott. So Willie Horton gets out the same time 
everybody else gets out. You can't hold--the thing about this 
determinate sentence and the kind of misleading thing here is 
you don't want to let anybody out early. That is the half truth 
in truth in sentencing. The whole truth is, you can't hold 
people longer either. And you would give up the opportunity to 
hold the worst prisoners much longer so that everybody gets out 
on the average?
    When you talk about determinate sentencing, why is Willie 
Horton and Charles Manson and that bunch, why are they smiling? 
They are smiling because they get out in the same average time 
as everybody else. You cannot hold them longer under 
determinate sentence because when the average comes, they get 
out with the rest of them.
    Now, my question again is, if you are talking about a 
sentence one and a half to 10, average 3, would it make more 
sense to give everybody the 3 or give Mr. Reilly the 
opportunity to tell some of them, no, you are not ready in 3, 
we are going to hold you to 10?
    Mr. Muhlhausen. I would prefer to have a longer sentence 
either way.
    Mr. Scott. Well, I didn't--well, see, you are trying to 
make--you are trying to use determinate sentence to create the 
longer sentence. Once you have figured out what the average is, 
my question is, would it make sense to be able to hold some 
much longer than average or not?
    Mr. Muhlhausen. If you had faith in the system, yes.
    Mr. Scott. It would make sense to be able to hold some 
longer than average?
    Mr. Muhlhausen. Yes.
    Mr. Scott. Okay. That is that liberal deceptive parole 
system you are talking about.
    Now, Mr. Reilly, when you make the decision to set a parole 
date, when is that decision made?
    Mr. Reilly. When we make the decision, it is usually after 
the person has served, depending upon their sentence that they 
are given, and they are given a hearing. A professional 
examiner conducts that hearing after review by analysts of the 
conduct of the individual in the institution, how they have 
progressed, what they have done while they have been in the 
institution, and a recommendation is then made to the full 
Commission.
    Mr. Scott. Would you consider whether or not they have a 
parole plan; that is to say, they have something to do and 
somewhere to go?
    Mr. Reilly. Most definitely. It is a major part of it.
    Mr. Scott. And does it make sense to you that if you have 
two people before you, one has a plan where they have a job 
lined up with somewhere to go and a support system and another 
person that chose no rehabilitation at all, does it make sense 
to let them out on the same day under determinate sentences? Or 
does it make more sense for you to use your common sense and 
recognize the one is ready to go and the other one isn't?
    Mr. Reilly. I would like to think that over the course of 
the existence of the Parole Commission that is the--since the 
Sentencing Reform Act, we have been using common sense because 
we have been very fortunate that we haven't had any major 
catastrophes with those folks that we have had to review.
    But with regard to the discussion here, because I see that 
we are talking obviously about determinate versus 
indeterminate, our concern of course is dealing with those 
folks who went in under the indeterminate sentence structure. 
And those are the people we are very critically concerned about 
at this point because of the fact that if the Commission does 
go out of business, obviously they will not have due process 
and the court will end up giving them due process. It won't be 
the Commission, and the courts will make that decision as to 
what happens to them.
    So I think the environment we are in right now is one 
that--where our concern is the critical nature of moving 
forward in terms of doing something with this legislation. I am 
delighted to say that even Mr. Vassar and I attended for 2 days 
along with representatives of the Department of Justice a 
symposium; since I do serve on the U.S. Sentencing Commission 
as an ex officio member by virtue of being chair of the Parole 
Board, or Parole Commission, we did have the opportunity to 
listen to 2 days of extensive testimony from a variety of folks 
from all walks of life and academicians and so on, calling to 
attention the fact that there needs to be a look probably at 
the overall criminal justice system in terms of the future, 
where we are going and so on, alternatives, if you will, that 
could be pursued, which many of our States are doing. Kansas is 
one of the leaders, and I am delighted to say I come from 
Kansas.
    Mr. Scott. And I think your point is that this discussion 
might better take place on another day. Let's get this 
legislation passed, is that what I am hearing?
    Mr. Reilly. I think that is where I am going, Congressman. 
I think it is another debate for another day, really. And I 
certainly welcome the opportunity.
    Mr. Scott. Your point is well taken and we are going to try 
to have that debate.
    Mr. Gohmert.
    Mr. Gohmert. Thank you. Well, let me ask Dr. Muhlhausen, 
one of the motivations for determinate sentencing was to 
alleviate disparities in sentencing across the country. That 
had been a problem. But especially disparate sentences that 
disadvantaged minorities, and I was wondering from the research 
you have done, has the determinate sentencing structure worked 
to address those disparities?
    Mr. Muhlhausen. Yes. I believe especially on the State 
level what you will see is that before sentencing guidelines 
were implemented on the State level you will find wide 
disparities in how people were sentenced for similar crimes. 
Then when--especially in Pennsylvania, for instance, the 
sentences came much more uniform, where people who committed 
the same crime were having very similar sentences. And so no 
longer you had so much of a disparity that could be drawn upon 
by background characteristics in individuals. So I would say 
that one of the benefits of the sentencing guidelines is it 
helps reduces disparity.
    Now there is always questions whether or not that person 
should be sentenced to that length of time or not. But you are 
going to have more even sentences across the board.
    Mr. Gohmert. Well, thank you. And I wanted to ask Chairman 
Reilly, do you have any estimate for when Federal parolees will 
no longer be in the criminal justice system?
    Mr. Reilly. That is an excellent question, Congressman. We 
don't have a projection that has been run out. We have done 
that in the past. It hasn't proven so far to be accurate in 
terms of the numbers because we are still dealing, as we said 
earlier, 1,581 that are incarcerated in the old law Federal 
classification and 2,576 who are out under supervision. 
Obviously people violate. They come back into the system.
    It is very hard to make a sound projection. One time we did 
look out to about 2010 and thought, as we did 5 or 10 years 
ago, that there was a way to start to really phase down even 
more dramatically the Commission. We are down to 72 staff. When 
I came originally we had 145. Our budget has remained fairly 
flat-lined all the way along so we have basically stayed in the 
status quo position. But that is something we could work on and 
try to provide the Committee in terms of giving these long-
range projections and plug in the fact we can't say this is 
ironclad because of people reviolating and so on.
    Mr. Gohmert. I think it would be very helpful if you could. 
Our colleague, Ms. Holmes Norton, brought up, you know, that we 
keep having to do this over and over again. And it would be 
really helpful to know what we are looking at in terms of 
length of time that it would be needed.
    Mr. Scott. If the gentleman will yield, Mr. Reilly, did you 
give an idea of how long you would like us to reauthorize this 
for?
    Mr. Reilly. Well, the recommendation for reauthorization is 
for 3 years. That is the recommendation that the Department has 
made, and we support that. We feel that in that period of time 
they are suggesting to us that there should be another look at 
this whole situation in terms of criminal justice issues, and 
we support that.
    Mr. Scott. Thank you.
    Mr. Gohmert. Then reclaiming my time, Mr. Crenshaw, you had 
mentioned that you violated earlier and were sent back to 
prison for use of drugs, and then it happened again. What drug 
was that?
    Mr. Crenshaw. Heroin.
    Mr. Gohmert. Heroin. At what point did you obtain a heroin 
problem? Was that before you went to prison the first time?
    Mr. Crenshaw. Yes, sir.
    Mr. Gohmert. I am curious. Did you have any exposure, any 
opportunities to have heroin while you were in prison?
    Mr. Crenshaw. Yeah, there was drugs available.
    Mr. Scott. The gentleman has a right against self-
incrimination.
    Mr. Crenshaw. There were drugs in prison.
    Mr. Gohmert. When he was in the first time, I am sure 
limitations has long since gone on that, from what he said, so 
he would be way beyond that. But when we are dealing with the 
system and we are dealing with people----
    Mr. Scott. He is not represented by counsel.
    Mr. Gohmert. Well, I wasn't asking a question because of 
the timeline we are talking about here that would have--Mr. 
Crenshaw, I am not trying to get you in trouble, but how long 
ago was it that you first were released from prison?
    Mr. Crenshaw. First in '92.
    Mr. Gohmert. In '92. So we are talking 16 years ago. I 
don't know of anybody, D.C. or otherwise, that would allow 
prosecution for 16 years or more ago. But it does help me. I am 
curious what people deal with in prison. Are we helping them to 
rehabilitate in prison, and are we not helping them?
    Then my next question was going to be, was there any drug 
treatment or drug rehab available during that first time you 
were in prison?
    Mr. Crenshaw. No.
    Mr. Gohmert. None at all. Not even a 12-step program?
    Mr. Crenshaw. Not in the institutions where I was.
    Mr. Gohmert. Not in institutions at all where you were. How 
about the second time you went back in? Was there any type of 
12-step or any other program?
    Mr. Crenshaw. When I went back the second time, Occoquan 
had started the first drug program in a D.C. facility and I was 
a part of it. The first program.
    Mr. Gohmert. What kind of program was it? Was it a 12-step 
program? Do you understand what I am talking about, a 12-step 
program?
    Mr. Crenshaw. I do. I don't know that they designated it by 
any particular name. It wasn't a 12-step program though.
    Mr. Gohmert. Just a drug rehabilitation type program, that 
what while you were incarcerated the second time?
    Mr. Crenshaw. Yes.
    Mr. Gohmert. Was it helpful at all? I know you re-offended 
later from what you said, but obviously----
    Mr. Crenshaw. I think it was.
    Mr. Gohmert. Would you consider yourself a drug addict?
    Mr. Crenshaw. Yes.
    Mr. Gohmert. Well, I don't think that is an unfair 
question. From the thousands of people I dealt with, it seems 
like, well, in the 12-step program, the first step is to admit 
there is an addiction, and then if there is, then you know you 
are going to be dealing with it every day for the rest of your 
life. So by my asking about was the program helpful, obviously 
you re-offended later, but that is a battle that gets fought 
every day, I am sure. Correct?
    Mr. Crenshaw. Yes, it is.
    Mr. Gohmert. If I can just ask one more question. Since you 
have been released, you said you weren't committed back this 
time, but that you have gotten rehab assistance now. What kind 
of program is that?
    Mr. Crenshaw. It is methadone maintenance.
    Mr. Gohmert. It is methadone. Is that proving helpful to 
you, do you feel like?
    Mr. Crenshaw. Yes.
    Mr. Gohmert. Do you recommend that program for others 
similarly situated?
    Mr. Crenshaw. I think people should be given options.
    Mr. Gohmert. What I am asking, I would like to have our 
money spent on programs that work.
    Mr. Crenshaw. Well, it works for me, and I know others that 
it has worked for, but I know some who it didn't work for.
    Mr. Gohmert. I see. Okay.
    Thank you, Chairman.
    Mr. Scott. Our presence has been requested downstairs. If 
we show up we will have a quorum.
    The gentlelady from Texas.
    Ms. Jackson Lee. I won't ask any questions. If the 
gentleman would yield to me just for a moment, I just wanted to 
put a couple points on the record, and then I will yield back. 
I wanted to thank the witnesses. I thank the Chairman and 
Ranking Member for this hearing.
    My point is, I was given a brief summary of Congresswoman 
Norton's testimony, and I certainly want to cooperate and 
collaborate with the system that is being utilized in the 
District of Columbia and is being helpful. However, I do want 
to get from Chairman Reilly, if I could, sort of a breakdown of 
the service and how the parole officers are functioning.
    My concern is that we need trained parole officers that 
know how to treat different classes of clients, and if an 
individual comes out, is gainfully employed and is doing well, 
the parole person should make sure that that is gainful 
employment, but not stigmatize the person as to being involved 
in criminal activities just because they are a success story. 
We are finding issues like this around the country.
    The second point is, I have an early release initiative, 
H.R. 261, and I frankly believe we should engage in some form 
of review of early release. I don't know if the Parole 
Commission could be tasked with that, the viability of an early 
release program, because, of course, we don't have parole. I 
think that that would be very important.
    So, I would hope that I could get a response, Chairman, in 
writing, about what kind of training goes on to the existing 
parole staff, parole officers, if you will, how do they assess 
parolees, how do they assess a success, and how do they refrain 
from condemning a person who is actually doing well on their 
own.
    I would appreciate your consideration of those questions.
    Mr. Scott. Thank you.
    I want to thank our witnesses for their testimony. We 
apologize. We went way over because of the confusion on the 
floor and we couldn't begin in time.
    Without objection, the hearing record will be left open for 
1 week for the submission of additional materials.
    Without objection, the Subcommittee is adjourned.
    [Whereupon, at 6 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    We have several distinguished witnesses appearing before the Crime 
Subcommittee to discuss the current and future role of the United 
States Parole Commission.
    I especially want to thank Representative Holmes Norton for taking 
time out of her schedule to testify and for her dedicated service to 
the District of Columbia. If an issue in Congress affects the citizens 
of the District of Columbia, Rep. Holmes Norton is always there to 
ensure that the best interests of the city are considered.
    Today's hearing concerns one of those issues, namely, the 
reauthorization of the United States Parole Commission. I am pleased to 
have introduced--along with Ranking Member Smith and Representatives 
Scott, Gohmert and Holmes Norton--legislation that would once again 
extend the Parole Commission's authorization for another three years.
    This will be the fifth time since the elimination of federal parole 
in 1987 that the Parole Commission has been reauthorized. I know 
Representative Holmes Norton has supported extending the Parole 
Commission permanently and I hope she will discuss her position on 
permanent extension.
    In the more than 20 years since the elimination of federal parole, 
Congress has debated whether or not to phase-out the Parole Commission. 
Currently, the Commission has jurisdiction over all decisions regarding 
parole release for D.C. prisoners and decisions on mandatory release 
supervision and revocation for all persons serving D.C. felony 
sentences.
    The Commission also has jurisdiction over federal and foreign 
transfer treaty offenders convicted before November 1987, some military 
code offenders and state defendants in the U.S. Marshals Service 
Witness Protection Program. According to the Parole Commission, at 
least 7,500 people will fall into one of these categories by 2010. This 
is why Congress, in the 1996 extension of the Parole Commission, 
finally recognized that there would be a need for the Commission 
through 2002 and beyond.
    As part of this hearing, I would like to make three brief points 
regarding the extension of the Parole Commission. First, I hope we can 
discuss whether it makes sense to permanently extend the parole 
commission in light of increasing numbers of D.C. offenders under 
supervised release who are under the jurisdiction of the Parole 
Commission.
    Second, I would like to hear more about whether parole has been 
successful in helping individuals who have often served long sentences 
in prison to reenter back into society.
    Third, I would like to know whether the U.S. Parole Commission is 
the appropriate agency for to make decisions about D.C. offenders.
    Again, I thank each of the witnesses for agreeing to appear before 
the Subcommittee today and I look forward to hearing your thoughts 
about the future of the Parole Commission.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Mr. Chairman, thank you for holding today's important hearing on 
the ``Reauthorization of the U.S. Parole Commission.'' I support this 
bill and I urge my colleagues to do likewise. This bill is necessary.
    The United States Parole Commission's (Parole Commission) authority 
will expire October 31, 2008. The House legislation to extend the 
Parole Commission authority for three more years will be introduced 
prior to this hearing. The purpose of the hearing is to examine the 
current and anticipated future role and operations of the Parole 
Commission in light of the elimination of federal parole.
    The Sentencing Reform Act (SRA) provisions of the Comprehensive 
Crime Control Act of 1984 created the United States Sentencing 
Commission which is responsible for establishing sentencing guidelines 
for the federal courts and a regime of determinate sentences. Under the 
SRA , defendants sentenced for federal offenses committed on or after 
November 1, 1987 serve determinate terms under the sentencing 
guidelines and are not eligible for parole consideration. In addition, 
the SRA provided for the elimination of the Parole Commission on 
November 1, 1992, five years after the sentencing guidelines took 
effect. This phase-out provision of the SRA did not adequately take 
into account the number of persons sentenced prior to November 1, 1987 
who would not complete their sentences by November 1992. In order to 
avoid serious ex post facto constitutional issues by eliminating or 
reducing parole eligibility for pre-1987 defendants, the Judicial 
Improvements Act of 1990 extended the life of the Parole Commission 
until November 1, 1997.
    The authorization of the Parole Commission was again extended for 
five more years under the Parole Commission Phaseout Act of 1996 (1996 
Act). The 1996 Act authorized the continuation of the Parole Commission 
until November 1, 2002, but Congress also recognized that some form of 
a parole function would be necessary beyond 2002.
    In 1997, the National Capital Revitalization and Self-Government 
Improvement Act of 1997 (1997 Act) gave the Parole Commission a number 
of additional responsibilities. The 1997 Act provided for the 
elimination of the District of Columbia Board of Parole and the 
transfer of its responsibilities to the U.S. Parole Commission. Also, 
the 1997 Act required the District of Columbia to move to a determinate 
sentencing system (at least for some offenses) and provided for terms 
of supervised release to follow the imposed determinate sentences. 
Under the 1997 Act, the Parole Commission was given continuing 
responsibility for supervision and revocation decisions of D.C. Code 
offenders who are given terms of supervised release under the new 
determinate sentencing system.
    In August 1998, the Parole Commission assumed jurisdiction over all 
decisions regarding parole release for prisoners confined for D.C. Code 
felony sentences as well as mandatory release supervision and 
revocation decisions for all persons serving felony sentences under the 
D.C. Code. In August 2000, the District of Columbia enacted a 
determinate sentencing system for all offenses ``committed on or after 
August 5, 2000.'' These offenders receive a definite term of 
imprisonment followed in most cases by a period of supervised release 
which may continue for a number of years. During the period of 
supervised release, the offender's behavior is closely monitored under 
conditions determined by the Parole Commission that are designed to 
protect public safety and maximize the likelihood of successful reentry 
into society.
    The 21st Century Department of Justice Appropriations Authorization 
Act of 2002 (2002 Act) extended the life of the Parole Commission until 
November 1, 2005. The 2002 Act also requested a study be completed 
before the expiration of the Act examining whether responsibility for 
District of Columbia offenders sentenced to supervised release should 
remain with the Parole Commission or be transferred to another agency. 
In 2004, DOJ completed the study requested in the 2002 Act and 
concluded that the Parole Commission should continue to carry out its 
responsibilities regarding supervised release of District of Columbia 
offenders. The most recent extension in the 109th Congress (S.1368/HR 
3020) passed by unanimous consent in the Senate and on suspension in 
the House with the support of the Chairmen and Ranking Members of both 
Senate and House Judiciary Committees.
    Congress has also given the Parole Commission additional 
responsibilities, including the responsibility for making prison-term 
decisions in foreign transfer treaty cases for offenses committed on or 
after November 1, 1987and jurisdiction over state defendants who 
participate in the U.S. Marshals Service Witness Protection Program. In 
addition, the Parole Commission has ongoing responsibility for the 
remaining ``old-law'' federal offenders in prison or under supervision 
who were sentenced before November 1, 1987 and military code offenders 
serving sentences in Bureau of Prisons institutions.
    The Department of Justice (DOJ) estimates by 2010 the parole 
population will be:

        1.  Federal Offenders: 881 (decreasing)

        2.  DC Offenders: 3,471 (decreasing)

        3.  DC Supervised Release Offenders: 3, 218 (increasing)

    Chairman Conyers and Ranking Member Smith are the lead sponsors of 
the legislation and Reps. Scott, Gohmert and Holmes Norton have agreed 
to be original co-sponsors. Last week, Sens. Leahy and Specter 
introduced a companion bill in the Senate to extend the Parole 
Commission for three years. The Senate bill was hotlined for floor 
action upon its introduction.
    As the expiration of the Parole Commission authorization draws 
near, DOJ is concerned that federal inmates who were sentenced prior to 
1984 will begin to file motions for release under Sec. 235(b)(3) of the 
Sentencing Reform Act (SRA) should the extension not become law before 
the current one expires. This section of the SRA requires that in the 
event the authorization of the Commission lapses, release dates for 
inmates sentenced before 1984 must be set consistent with 18 U.S.C. 
Sec. 4206 (repealed) three to six months prior to expiration of the 
Commission.
    Initially, Rep. Holmes Norton requested an indefinite extension of 
the Parole Commission's authority. Ultimately, Ms. Holmes Norton agreed 
to co-sponsor the House legislation with a three year extension, 
because Senate co-sponsors of the companion legislation were not 
willing to extend the reauthorization beyond 2011.
    DOJ has proposed that during the next three year extension of the 
Parole Commission, an internal working group examine the future of the 
Commission. This working group would examine whether any changes to the 
Commission are necessary to reflect its decreasing federal parole 
responsibilities and evolving supervised release responsibilities. 
These changes may include transferring all or some of the Commission's 
functions to an entity or entities inside or outside of the Department 
of Justice.
    A letter dated May 22, 2008 was sent to DOJ from the Federal Court 
of Appeals for the Third Circuit requesting information regarding 
Congress' intent to extend the Commission. DOJ anticipates this will be 
the first of a number of such requests and are concerned that because 
reauthorization legislation has not been passed that it may create the 
perception that the Parole Commission will not be reauthorized.
    There will be two witness panels for this hearing. Rep. Eleanor 
Holmes Norton will testify on the first panel. The Honorable Edward 
Reilly, Jr, Chairman of the Parole Commission will testify on the 
second panel along with Kenneth Linn, J.D., LL.M., Chairman of the 
Federal Chapter of Citizens United for Rehabilitation of Errants (CURE) 
and David B. Muhlhausen, Ph.D., Senior Policy Analyst for the Heritage 
Foundation's Center for Data Analysis.
    I look forward to hearing the testimony of today's witnesses. Thank 
you, and I yield the balance of my time.

                                <F-dash>

Prepared Statement of the Honorable Louie Gohmert, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

    The subject of today's hearing is the reauthorization of the United 
States Parole Commission. The Commission is an independent agency 
within the Department of Justice that has the responsibility of 
supervising federal offenders that are eligible for parole.
    The Parole Commission also has jurisdiction over two separate 
groups of D.C. Code offenders, those convicted of D.C. offenses for 
which they can be paroled and those convicted under current DC law, 
under which they cannot be paroled.
    Today, the great majority of the U.S. Parole Commission's workload 
concerns the District of Columbia offenders. That is because the group 
of offenders that the Commission was originally intended to supervise--
federal offenders that are eligible for parole--are a small category of 
prisoners getting smaller every day.
    This decrease in the number of parole-eligible federal offenders is 
the result of a decision by Congress to end indeterminate sentencing, 
and therefore federal parole, with the passage of the Sentencing Reform 
Act or SRA of 1984.
    The SRA created a system of ``supervised release'' that requires an 
offender to receive a determinate sentence of incarceration--generally 
a term of months or years--followed by a period of release into the 
community under the close supervision of court officers. Congress 
passed this law to address concerns of sentencing disparities across 
the country. The SRA had the goal of imposing similar sentences for 
similar crimes nationwide.
    As a result of this law, the wide and seemingly arbitrary 
indeterminate sentences of judges were replaced with determinate 
sentences mandated by strong guidelines created by the U.S. Sentencing 
Commission.
    In passing the SRA, Congress also had the goal of correcting the 
failure of the federal corrections system to lower high crime rates.
    This new federal sentencing arrangement has been an unquestioned 
success. Determinate sentencing made incarceration terms more 
meaningful by ensuring that offenders actually served most of their 
sentences. Determinate sentencing also helped to restore the 
credibility of courts by making sentencing more uniform and ensuring 
that offenders actually served almost all of their original sentences.
    Over the last 25 years, the national crime rate has dropped. This 
decrease in crime can be attributed to determinate sentencing, which 
keeps violent criminals in prison and off the streets.
    In an effort to lower local crime rates, the District of Columbia 
followed the federal example, by abolishing parole and establishing a 
system of supervised release in 2000. Under the D.C. system, the D.C. 
Superior Court imposes a term of supervised release, but the Parole 
Commission imposes the conditions of supervised release and is 
responsible for enforcing those conditions.
    Like the population of federal offenders eligible for parole, the 
parole-eligible D.C. offender population is declining over time, 
although at a slower rate than federal offenders. It has been estimated 
that it will take 25 years or more before the D.C. parole-eligible 
offender population disappears. Because all incoming offenders are now 
sentenced under the new arrangement, the D.C. supervised release 
offender population is increasing over time.
    By 2010, the Department of Justice estimates that there will be 
less than 900 parole-eligible federal offenders, with their numbers 
decreasing each year. The Department estimates that there will be 
around 3400 D.C. parole-eligible offenders, whose numbers will also 
decrease each year. It also estimates that there will be more than 3200 
D.C. offenders sentenced under the newer supervised release system by 
that time, with those numbers increasing each year.
    The Commission's authority to supervise these offenders will expire 
on October 31, 2008. The Department of Justice has requested that 
Congress introduce legislation to extend the Commission for another 
three years. In response to that request, Chairman Conyers plans to 
introduce the Parole Commission Extension Act of 2008. Chairman Scott, 
Ranking Member Smith, and I will co-sponsor this bill.
    The Department of Justice has indicated that it will evaluate the 
future of the Commission during the three year period when the 
Commission is extended. The Department will review whether any changes 
to the Commission are necessary to reflect its decreasing federal 
parole responsibilities and evolving supervised release 
responsibilities for the District of Columbia. These changes may 
include transferring all or some of the Commission's functions to an 
entity or entities inside or outside of the Department of Justice.
    I expect the Department to share the results of this review and 
look forward to receiving them. This review will be beneficial to 
Congress and will help Members make an informed decision about the 
future status of the U.S. Parole Commission.
    I thank the witnesses for joining us today and I look forward to 
hearing their testimony. I yield back the balance of my time.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
